HHS/OIG, Audit -"Region VII Rollup Report for 4-State Review of Medicaid Drug Rebate Collections,"(A-07-03-04010)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Region VII Rollup Report for 4-State Review of Medicaid Drug Rebate Collections," (A-07-03-04010)
February 26, 2004
Complete
Text of Report is available in PDF format (299 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the four State agencies in Region VII (Missouri, Kansas, Iowa and
Nebraska) had established adequate accountability and internal controls over their respective Medicaid drug rebate programs.  Individual
reports were issued to each State agency, and this report summarizes the issues identified in those reports.
Three of the State agencies had not established adequate accountability and controls over their Medicaid drug rebate programs.  As
a result, there was no assurance that all drug rebates due to those States were collected.  Missouri had generally
established adequate controls and procedures. Specific recommendations were made to each of the State agencies that addressed
the weaknesses described above.  Missouri and Kansas generally agreed with the findings and recommendations and indicated
that corrective action had been enacted or was planned.  Iowa and Nebraska did not fully concur with our findings.